<html>
<title> - H.R. 2634, THE JUBILEE ACT FOR RESPONSIBLE LENDING AND EXPANDED DEBT CANCELLATION OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                     H.R. 2634, THE JUBILEE ACT FOR


                    RESPONSIBLE LENDING AND EXPANDED


                       DEBT CANCELLATION OF 2007

=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 8, 2007

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 110-80


                     U.S. GOVERNMENT PRINTING OFFICE

40-432 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 BARNEY FRANK, Massachusetts, Chairman

PAUL E. KANJORSKI, Pennsylvania      SPENCER BACHUS, Alabama
MAXINE WATERS, California            RICHARD H. BAKER, Louisiana
CAROLYN B. MALONEY, New York         DEBORAH PRYCE, Ohio
LUIS V. GUTIERREZ, Illinois          MICHAEL N. CASTLE, Delaware
NYDIA M. VELAZQUEZ, New York         PETER T. KING, New York
MELVIN L. WATT, North Carolina       EDWARD R. ROYCE, California
GARY L. ACKERMAN, New York           FRANK D. LUCAS, Oklahoma
JULIA CARSON, Indiana                RON PAUL, Texas
BRAD SHERMAN, California             STEVEN C. LaTOURETTE, Ohio
GREGORY W. MEEKS, New York           DONALD A. MANZULLO, Illinois
DENNIS MOORE, Kansas                 WALTER B. JONES, Jr., North 
MICHAEL E. CAPUANO, Massachusetts        Carolina
RUBEN HINOJOSA, Texas                JUDY BIGGERT, Illinois
WM. LACY CLAY, Missouri              CHRISTOPHER SHAYS, Connecticut
CAROLYN McCARTHY, New York           GARY G. MILLER, California
JOE BACA, California                 SHELLEY MOORE CAPITO, West 
STEPHEN F. LYNCH, Massachusetts          Virginia
BRAD MILLER, North Carolina          TOM FEENEY, Florida
DAVID SCOTT, Georgia                 JEB HENSARLING, Texas
AL GREEN, Texas                      SCOTT GARRETT, New Jersey
EMANUEL CLEAVER, Missouri            GINNY BROWN-WAITE, Florida
MELISSA L. BEAN, Illinois            J. GRESHAM BARRETT, South Carolina
GWEN MOORE, Wisconsin,               JIM GERLACH, Pennsylvania
LINCOLN DAVIS, Tennessee             STEVAN PEARCE, New Mexico
ALBIO SIRES, New Jersey              RANDY NEUGEBAUER, Texas
PAUL W. HODES, New Hampshire         TOM PRICE, Georgia
KEITH ELLISON, Minnesota             GEOFF DAVIS, Kentucky
RON KLEIN, Florida                   PATRICK T. McHENRY, North Carolina
TIM MAHONEY, Florida                 JOHN CAMPBELL, California
CHARLES WILSON, Ohio                 ADAM PUTNAM, Florida
ED PERLMUTTER, Colorado              MICHELE BACHMANN, Minnesota
CHRISTOPHER S. MURPHY, Connecticut   PETER J. ROSKAM, Illinois
JOE DONNELLY, Indiana                KENNY MARCHANT, Texas
ROBERT WEXLER, Florida               THADDEUS G. McCOTTER, Michigan
JIM MARSHALL, Georgia                KEVIN McCARTHY, California
DAN BOREN, Oklahoma

        Jeanne M. Roslanowick, Staff Director and Chief Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    November 8, 2007.............................................     1
Appendix:
    November 8, 2007.............................................    23

                               WITNESSES
                       Thursday, November 8, 2007

Caliari, Aldo, Director, Rethinking Bretton Woods Project, Center 
  for Concern....................................................    10
Flood, Gerald F., Counselor, Office of International Justice and 
  Peace, United States Conference of Catholic Bishops............     8
Watkins, Neil, National Coordinator, Jubilee USA Network.........     4
Woods, Emira, Co-Director, Foreign Policy in Focus, Institute for 
  Policy Studies.................................................     6

                                APPENDIX

Prepared statements:
    Waters, Hon. Maxine..........................................    24
    Caliari, Aldo................................................    26
    Flood, Gerald F..............................................    38
    Watkins, Neil................................................    46
    Woods, Emira.................................................    61


                     H.R. 2634, THE JUBILEE ACT FOR



                    RESPONSIBLE LENDING AND EXPANDED



                       DEBT CANCELLATION OF 2007

                              ----------                              


                       Thursday, November 8, 2007

             U.S. House of Representatives,
                   Committee on Financial Services,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room 2128, Rayburn House Office Building, Hon. Barney Frank 
[chairman of the committee] presiding.
    Members present: Representatives Frank, Waters, Moore of 
Kansas, Green, Cleaver, Bean, Moore of Wisconsin, Sires; Bachus 
and Bachmann.
    The Chairman. We will begin. Our senior Republican, who is 
of course one of the major sponsors of this program both in the 
past and today, will be joining us shortly. We are returning to 
a subject in which this committee has played a leading role, 
and it is time to resume that role.
    It was members of this committee--our former chairman, Mr. 
Leach, whose picture is appropriately there to my left in the 
rear; the current ranking member, Mr. Bachus; the gentlewoman 
from California, the chairwoman of the Housing Subcommittee; 
and myself--who pushed for this to happen in the first place 
over the objection of many, including people in the Clinton 
Administration, and it was frankly one of the rare times in 
recent years when both the Republican House leadership and the 
Clinton Administration were overruled by a vote on the Floor of 
the House. The religious communities also participated 
strongly, and the four of us worked on this, and we are back at 
it.
    Let me say that I think the moral case for debt relief is 
almost self-evident. No matter what you think about past 
practices, and in many cases, past practices were wrong on the 
part of the borrowing countries, on the part of the lending 
institutions in countries, whatever you think, sadly today, 
overwhelmingly the victims are innocent people, residents of 
these countries, and our job is to alleviate their misery. 
There is a great deal of talk about how we go forward with 
economic development, and there are legitimate concerns about 
that. But there is no room for any intellectual doubt that 
getting rid of this overhang of debt is an essential 
precondition to any progress.
    And so the committee is resuming this. We take a good deal 
of heart from the fact that--well, let me put it this way. It 
is a common lie for people to say that they do not like to say, 
``I told you so.'' In my experience, everybody likes to say, 
``I told you so,'' and in fact, personally, I can say--and 
people have heard me say this before--that it is one of the few 
pleasures that improves with age. And those of us on the 
committee, and I'm joined by the gentleman from Alabama who is 
one of the leading advocates of it, those of us who were in the 
lead on the debt relief previously can say, ``We told you so.'' 
It has worked well. It has been very helpful. It has been one 
of the most--given the situation in Africa and some other 
places, it's hard to say it was a positive thing, but it did 
more to diminish the negatives that we confront than any other 
single thing I can think of.
    So, we think it worked well enough for us to do it again, 
and we will be pushing the governments, the international 
financial institutions, to move forward with that. I very much 
welcome this panel, and it is the beginning of a serious 
legislative effort, once again, in a bipartisan way, and you 
will see this committee, I believe, pushing forward with this. 
With that, I will recognize the gentleman from Alabama, the 
ranking member, who as I said--when we did this the first 
time--was one of the leading sponsors and advocates, and he 
continues to be in that category. Mr. Bachus.
    Mr. Bachus. I thank the chairman. I thank you for holding 
this important hearing on the Jubilee Act, and for your 
leadership, as well as the leadership of Subcommittee 
Chairwoman Waters. I welcome the witnesses. Many of you, we've 
worked together, worked with our colleagues on debt reduction 
and poverty alleviation legislation for the poor countries of 
the world, for nearly a decade now. And I'm happy to say that 
those efforts have been remarkably successful.
    Mr. Chairman, as you know, myself and many of my colleagues 
on this committee took part last month in a fast in support of 
the Jubilee Act. The momentary hunger that I felt was nothing 
like the courageous weeks-long fast of Reverend David Duncan, 
of course. But fasting for one day cannot begin to compare with 
the constant hardships and the pangs of hunger experienced 
daily by millions of little boys and girls and even their 
parents and their families, who were born into what seems to be 
perpetual poverty, disease, and hunger in dozens of countries 
around the world.
    Congress can be a tough environment, and we say on occasion 
that we had a really bad day, a tough day. But we ought to be 
reminded that for billions of people throughout the world, that 
even on our worst days, we have more food, more shelter, more 
clothes, more security, more healthcare, and more of everything 
than our poor brothers and sisters have on their best days.
    In debating debt relief, I've often quoted Sister Rebecca 
Trujillo, a nun in Nicaragua. She was asked, ``How do the poor 
get through the day? How do they survive?'' Her answer was, 
``Often they do not.''
    Mr. Chairman, we started something big with the Jubilee 
movement. NGOs, our witnesses, millions of people around the 
world joining together to make a historic commitment to debt 
relief in the year 2000. Since then, there has been even more 
or further debt forgiveness on the part of the G-8 nations. In 
countries where debt relief has been implemented, debt is down 
by two-thirds, and spending on reducing hunger and improving 
health, education, and social services is now 4 times the size 
of the previous debt payments.
    Since the start of the new millennium, the poverty rate in 
sub-Saharan Africa is down 6 percent. There are more children 
receiving healthcare and medical treatment, in fact, over a 
million more children in that area alone. Vaccinations are up, 
and throughout Africa, the percentage of students enrolled in 
primary school has gone up significantly.
    The Jubilee Act will build on those successes by making it 
possible to cancel the debts of up to 25 countries that are not 
now eligible for debt relief. Debt relief has improved the 
lives of millions of people at almost no monetary cost to the 
United States. If the Jubilee Act is successful, the U.S. share 
of debt reduction for the nine or so countries that would be 
eligible immediately would be $100 million. That's less than 50 
cents apiece for every man, woman, and child in this country. 
Surely the most generous country in the world can afford a 
commitment of 50 cents.
    Doing the right thing is the imperative here. But even if 
we consider cost, let us realize that the cost of not acting is 
not only hopelessness and unrest throughout the world, but also 
an increased threat of terrorism. Poverty breeds unrest and 
instability and creates the types of conditions that allow 
dictators and terrorists to survive and thrive. So, combatting 
global poverty is clearly in our own economic and national 
security interest.
    Debt relief is not the total solution to poverty, hunger, 
and disease, but it is a necessary first step. It is where the 
journey should begin to free these countries of the burden of 
debt, the chains of poverty, and the shackles of despair and 
enable them to minister to the economic and social needs of 
their citizens. Accordingly, I will continue to work with my 
colleagues to advocate this legislation both in the committee 
and in the House as a whole.
    I yield back the balance of my time, and I again welcome 
our witnesses.
    Ms. Waters. [presiding] Are there any other members who 
wish to make an opening statement? If not, I will recognize 
myself for 5 minutes. First, I'd like to begin by thanking 
Chairman Barney Frank and Ranking Member Spencer Bachus for 
organizing this hearing and for their support of the Jubilee 
Act. I also would like to thank the Jubilee Movement for all of 
their efforts over the past 10 years to cancel the debts of the 
world's poorest countries.
    The Jubilee Movement is one of the most outstanding 
humanitarian efforts I have seen in my entire career. Over the 
past 10 years, Jubilee has convinced Members of Congress, 
officials of the Clinton and Bush Administrations, and 
political leaders from around the world to cancel poor country 
debts. I'm so proud of my affiliation with the Jubilee Movement 
because it brought the needs of the world's poorest people to 
the attention of the world's most powerful leaders.
    I introduced the Jubilee Act to cancel the debts of 
additional needy and deserving poor countries and to ensure 
that the benefits of debt cancellation will not be eroded by 
vulture funds and irresponsible lending. Because of the 
tireless efforts of Jubilee Movement activists, the Jubilee Act 
now has 86 cosponsors. I look forward to hearing the views of 
the witnesses on how the Jubilee Act can be effectively 
implemented and how it will benefit the world's poorest 
countries and their people. I'm not going to get into the 
details of the Jubilee Act, because I know that is what the 
witnesses are here to do, but I request unanimous consent to 
have my complete statement included in the hearing record. And 
so without objection, it is so ordered.
    Without further delay, I will yield back the balance of my 
time, and we will now hear from our witnesses: Mr. Neil 
Watkins, national coordinator, Jubilee USA Network; Ms. Emira 
Woods, co-director, Foreign Policy in Focus, Institute for 
Policy Studies; Mr. Gerald F. Flood, counselor, Office of 
International Justice and Peace, U.S. Conference of Catholic 
Bishops; and Mr. Aldo Caliari, director, Rethinking Bretton 
Woods Project, Center of Concern. Thank you for being here, and 
we will start with Mr. Watkins.

 STATEMENT OF NEIL WATKINS, NATIONAL COORDINATOR, JUBILEE USA 
                            NETWORK

    Mr. Watkins. Well, thank you, Congresswoman Waters. And 
before I begin, I would just like to offer a profuse thank you 
on behalf of the entire Jubilee Network to Chairman Frank, 
Ranking Member Bachus, and Congresswoman Waters. Your tireless 
leadership and support on debt cancellation has truly been a 
blessing, and you have all been long-time champions. We are 
really grateful for your leadership and all of this committee's 
leadership in addressing the crisis of international debt.
    I want to begin my testimony with a story about how debt 
cancellation works in Zambia. Earlier this year I had the 
opportunity to see the impact of debt cancellation firsthand 
when a Jubilee delegation visited the Siavonga Rural Health 
Clinic in the Zambian countryside. As we toured the clinic, 
Grace Chibanda, a pharmacist, showed us the pharmacy, which was 
full of anti-retroviral drugs for HIV/AIDS. Debt relief is a 
good thing, Grace told us. It is getting medicines for people 
who didn't have it before.
    Zambia is using its debt cancellation savings of $23.8 
million in 2006 in part to eliminate user fees for healthcare 
for impoverished people in rural areas. This means that an 
unpayable fee no longer stands between Zambia's poorest people 
and basic health services. Nurses and doctors we talked with 
confirmed that they had seen an increase in patients after the 
user fees were removed. It was truly inspiring to see the 
impacts of debt relief firsthand and to know that the relief is 
getting to Zambians who need it.
    In another example, Tanzania is also putting its debt 
savings to work, sending two million children to primary 
school. Since 1996, more than 30 countries have received some 
form of debt relief. Twenty-two nations have reached what is 
called completion point in the IMF and World Bank's Heavily 
Indebted Poor Country or HIPC initiative, and they have 
received now 100 percent cancellation of eligible debt stock.
    Debt cancellation committed under these programs to date is 
expected to reduce the debt stock of the 32 HIPCs, eventually 
canceling a total of $96 billion in debt under the Multilateral 
Debt Relief Initiative. This year alone, annual debt service 
savings from the MDRI will amount to $1.3 billion, almost all 
of which will go directly to fighting extreme poverty around 
the world. Congress and the Administration have each played 
important roles in achieving a bipartisan consensus for debt 
cancellation and should be proud of what has been accomplished 
so far.
    As supporters and advocates of debt cancellation, we must 
continue to be vigilant, to ensure that proceeds from debt 
cancellation reach the most impoverished people, but we are 
encouraged by the positive impacts of debt relief on the 
ground.
    Debt cancellation now has a 10-year record of success, and 
it is a proven tool to fight global poverty. But even after the 
debt cancellation provided to date, the world's most 
impoverished nations continue sending $100 million each day to 
the United States, the IMF, the World Bank, and other 
creditors. A majority of the world's impoverished countries 
remain mired in a debt crisis. A 2007 study of 41 poor 
countries that had not reached completion point in the HIPC 
initiative found that most of these countries were actually 
paying more on debt servicing today than they were in 1996. 
These are funds and payments that could be going towards 
meeting the millennium development goals.
    That is why we are saying that it is time to extend the 
promise of debt cancellation. The UK government has already 
begun to extend debt relief to impoverished countries who don't 
qualify for the HIPC initiative but who have proven that they 
can spend the money well and who need the relief to meet the 
MDGs.
    The Jubilee Act is modeled after this initiative and would 
extend debt cancellation to well-governed countries that need 
it to fight poverty. The Act could initially expand debt 
cancellation to nine more countries and ultimately could add 15 
beyond that.
    One of the countries that could benefit is Kenya. When I 
traveled to Kenya earlier this year, I saw crushing poverty 
similar to what I saw in Zambia. In Kibera, Africa's largest 
slum, we met children, parents, and community leaders. One of 
the people I will never forget was a 13-year-old girl named 
Mary, who was orphaned by AIDS. She dramatized and recited two 
poems for us while we were there, one about the devastation of 
AIDS for her and the people of Africa, and the other about AIDS 
leaving her and her other young friends without parents. Her 
strong spirit and resilience shone through as she spoke and 
moved to the rhythm of her powerful words. I didn't see the 
progress in Kenya, however, that I had seen in Zambia. Why? In 
part, because Kenya does not qualify for the current debt 
relief initiative, despite its strong need and improving public 
financial management. They don't qualify despite the fact that 
Kenya spends more servicing debt than on healthcare or water.
    Expanded debt cancellation can make a real difference for 
people in countries like Kenya and elsewhere. As we expand debt 
cancellation, however, we must be careful to learn the lessons 
of the past 11 years. We need to work for more responsible 
lending practices in the future and make reforms in the way 
debt cancellation is delivered by removing harmful conditions 
that are undermining the promise of debt cancellation.
    To conclude, the Jubilee Act is the smart thing to do. Debt 
cancellation is an effective and tested strategy for fighting 
poverty, and it is a good investment in our security and our 
image abroad. It is also the right thing to do.
    Thank you.
    [The prepared statement of Mr. Watkins can be found on page 
46 of the appendix.]
    The Chairman. Next, Ms. Woods.

STATEMENT OF EMIRA WOODS, CO-DIRECTOR, FOREIGN POLICY IN FOCUS, 
                  INSTITUTE FOR POLICY STUDIES

    Ms. Woods. Good morning, Chairman Frank, Ranking Member 
Bachus, and Subcommittee Chairwoman Waters. It is an honor to 
be here with you today. I really want to begin, as Neil began, 
by thanking you for your steady, sustained, and moral 
leadership on this issue. It is your bipartisan leadership that 
has brought already such tremendous strides on debt relief.
    My primary focus today will be to explain how I feel so 
strongly that debt cancellation should be granted without 
harmful conditions of past debt initiatives. My testimony is 
based on both my professional and personal experiences. I'm 
originally from Liberia and have seen firsthand the painful 
burdens of debt not only throughout the continent, but even in 
my own family.
    Congress and the President, together with your leadership, 
took a huge step forward 10 years ago when they stated that it 
was a moral imperative to give poor people in poor countries 
debt relief. Through your leadership, the burden of repaying 
debts incurred by rich and often irresponsible leaders began to 
be lifted. Yet today, we recognize that the bold steps forward 
from a decade ago did not go far enough. Previous schemes left 
out many eligible countries and also had onerous strings 
attached, conditionalities.
    The Jubilee Act before you today will extend debt 
cancellation to all impoverished countries that need relief to 
meet their millennium development goals. On average, low-income 
countries spend about $100 million a day just to pay interest 
on their debts, vital resources that could be spent on 
essential services. The Jubilee Act will bring relief where 
debts incurred by dictators and also debts that have been paid 
many times over through high interest payments can be relieved.
    I'd love to begin by sharing with you the story--it's a 
very difficult story--of my cousin, now 22 years old. For the 
sake of this testimony, and to protect her identity, I'll call 
her Anna. Anna and I met 2 years ago when I went home to 
Liberia after the decades of war. Anna had also just returned 
home after living much of her life in a refugee camp in Ghana 
called Bujumbura. At 20 years old, Anna had already experienced 
more of the direct impact of debt and conditionalities than a 
roomful of economists. My aunt and uncle had left Liberia for 
Ghana on foot when the war started in 1990. Anna was just 5 
years old. The ruthless dictator, Samuel Doe, accrued debt as 
he used U.S. taxpayer monies from the Reagan era as ``loans'' 
to train and equip an army that he then unleashed against 
primarily innocent civilians. Charles Taylor unseated Doe and 
continued the ruthlessness until over 250,000 Liberians had 
been killed and Does' debt had ballooned to $3 billion.
    Ghana, where the camp was, had approved its first Economic 
Structural Adjustment Facility loan in May of 1995. In that 
year, the agreement led Ghana to begin selling off--
privatizing--14 state-owned enterprises. Massive job losses in 
Ghana airways, Ghana railways, and the Electricity Company of 
Ghana, among many others, were the result. With Ghanaians 
forced out of jobs, the job market for Liberian refugees was of 
course much worse. My aunt and uncle could not find work in 
spite of their graduate degrees. Little Anna, then barely 10 
years old, could no longer go to school. This was because of 
the conditions of the international financial institutes which 
actually imposed user fees on the students at community-level 
schools in Ghana at that time.
    At the age of 13, my cousin practically lived in the 
streets. On Sunday afternoons, as my aunt went to church, Anna 
and other teenage girls would parade around the camp, scantily 
clothed, waiting for older men, many of whom did not live in 
the camp, to solicit them. This was their employment since 
school was no longer an option. When we met 2 years ago, Anna 
had two children, the eldest born when she was just 15 years 
old. Anna returned to Liberia, ready to start her life anew. 
But as Liberia repays its debt to the international financial 
institutions, there are no functioning hospitals. I fear that 
Anna may be one of the many undiagnosed yet living with HIV/
AIDS, and the same conditionalities that denied her an 
education may now keep her from treatment, unless Liberia and 
many other countries in Africa and throughout the developing 
world can spend their scare resources on health, education, and 
basic services for their citizens, Anna's children, and many 
other children throughout the continent will continue to pay 
the heaviest price for the debt of dictators and the 
conditionalities of the international financial institutions.
    We know that this story is repeated throughout the 
continent. We recognize also the harmful impact of conditions 
throughout the continent. Many claim that the international 
financial institutions no longer impose these conditionalities. 
We have clear evidence from countries throughout the continent 
that in fact privatization of core industries, as well as 
liberalization of opening up of markets, particularly financial 
and banking sectors, continues today.
    We are incredibly concerned that unless the conditions, the 
harmful macroeconomic conditions attached to these initiatives 
are removed, there will continue to be disastrous implications 
even as we advance debt relief.
    There are many instances that we would love to share; I 
wanted to talk in particular about Mali. Mali, which had 
conditions tied to its poverty reduction strategy papers and 
its PRGF, the Poverty Reduction Growth Facility arrangement 
with the IMF, those conditions included water, banking, 
telecommunications, and agriculture, especially in companies 
dealing with cotton, Mali's biggest export earner. Mali sold 
off its rights to the French company SAUR in 2000. The process 
forced impoverished communities to pay for the first time for 
access to clean water.
    In a few short years, there were numerous complaints about 
mismanagement and claims by the Malian government that the 
companies had failed to run the water services according to 
contract. By 2005, the Malian government re-nationalized water 
and yet was seen as ``off track'' by the IMF.
    Countries that go a different path from the IMF are 
actually threatened not only from being tossed out of debt 
relief schemes but also from accessing other core financing 
from the development community. It is this stranglehold of the 
IMF through conditionalities that we must end.
    I urge this committee to support the Jubilee Act to fix the 
flawed debt relief by canceling odious debt, by eliminating 
harmful conditionalities, and by advancing steadfastly towards 
an Africa, Latin America, Asia, a developing world where people 
can pursue, health communities can pursue education for their 
children, can live lives of dignity.
    I believe this is what you all as members of this committee 
intended when you advanced debt relief a decade ago. If we take 
the necessary steps now to remove harmful conditionalities, we 
can meet your moral imperative of lifting the burden of debt 
for Africa and for much of the world.
    Debt has kept Africa in bondage long after the end of 
slavery and colonialism. This legislation could help break 
those chains. It won't solve all the problems of the world's 
poorest country, and it won't give my cousin back her 
childhood, but it will give these struggling nations a better 
chance of building strong, secure, and healthy societies.
    Thank you.
    [The prepared statement of Ms. Woods can be found on page 
61 of the appendix.]
    The Chairman. Next, we have Gerald Flood.
    Mr. Flood.

      STATEMENT OF GERALD F. FLOOD, COUNSELOR, OFFICE OF 
 INTERNATIONAL JUSTICE AND PEACE, UNITED STATES CONFERENCE OF 
                        CATHOLIC BISHOPS

    Mr. Flood. Thank you, Mr. Chairman. Mr. Chairman, and 
members of the committee, I would like to thank you for the 
opportunity to testify here today. Debt relief for poor 
countries has been a high priority for our Bishops Conference 
for many years. In my testimony I will be focusing on a number 
of issues at a level of technical detail which the Bishops 
would not normally address and on which therefore they would 
not have a position. Thus I offer my testimony primarily as a 
former development agency official who has worked on debt and 
related issues with both the World Bank and the Bishops 
Conference over quite a few years.
    I would like to begin by reiterating the expressions of 
thanks and appreciation which have already been mentioned by 
the previous witnesses, especially to Chairman Frank and 
Representatives Bachus and Waters for their strong and 
untiring, faithful--I don't know how many adjectives one could 
find to adequately express the leadership which they have 
exercised over many years in an effort to bring debt relief to 
millions of poor people in low-income countries around the 
world.
    Before getting to some of the issues, I had wanted to 
mention one specific case showing how the HIPC program is 
enabling Catholic Relief Services and a broad group of allies 
in Cameroon to lead a path-breaking effort to unite sustainable 
forestry management with rural community development throughout 
the country, but time won't permit, so I refer you to my 
written testimony on this.
    In looking at H.R. 2634, some members of the committee may 
be wondering why additional debt cancellation is necessary when 
so much debt relief is already being provided under HIPC and 
the more recent Multilateral Debt Relief Initiative. The 
problem is that there are a substantial number of poor 
countries that are not eligible for the HIPC program, let alone 
the MDRI.
    The disparity of treatment between HIPC countries and non-
HIPC countries became clear when the World Bank and IMF 
conducted an examination of so-called ``debt sustainability'' 
in the poorest countries, the so-called IDA-only countries, the 
countries that are only allowed to receive from the World Bank 
funds from their most concessionary arm. The primary objective 
of the exercise was to determine which countries should receive 
their future IDA financing either wholly or partially in the 
form of grants. When the exercise was conducted in 2005, it 
showed that 42 countries were at sufficiently high risk of debt 
distress to be eligible for grant financing, instead of the 
usual loans. The list included 29 HIPC countries plus 18 other 
countries. This meant that there were 18 non-HIPC countries 
rated as having a risk of debt distress equal to or greater 
than the HIPC countries. Like the HIPC countries, now they were 
going to get some grants going forward. But unlike the HIPCs, 
they would get no debt relief.
    One of the 18 non-HIPCs in this list is Lesotho, which 
reminds me of a remark made by the country's finance minister 
when he learned about the MDRI debt cancellation agreement. He 
told Reuters that one of the reasons Lesotho was not classified 
as an MDRI country was it had never defaulted on its debt. It 
is important, he said, that those who have paid their debts 
well, who run their mega-finances well, should be rewarded with 
debt forgiveness.
    The debt cancellation provisions of H.R. 2634 would address 
the concern expressed by the minister and bring deep debt 
relief within the reach of virtually all of the world's poorest 
countries. Some will note that the IDA-only criterion for 
eligibility under the bill will capture some countries with 
relatively low levels of external debt. Assuming one accepts 
the debt sustainability analysis as fully valid, and there are 
some questions about it, in determining really whether these 
countries who are so-called not at high risk of debt distress 
really are in bad shape as far as their debt, the fact is that 
however you slice it, the countries, all of these countries are 
ones with very high levels of poverty, and thus they need to 
maximize the amount of resources that they can marshal to 
promote human development and move toward the millennium 
development goals for reducing poverty.
    We believe that the IDA-only requirement is a reasonable 
standard for determining which countries should be eligible for 
debt cancellation. I would also like to address briefly the 
cost of the debt cancellation. I have made a rough estimate of 
the amount of funds the United States needs to commit through 
the next three IDA replenishment periods--Fiscal Year 2008 
through Fiscal Year 2017--in order to finance the cost of the 
debt cancellation. I'm unable to provide a firm estimate 
because much of the information required for an accurate 
estimate is not publicly available. My rough estimate then is 
that the cost to the United States would be roughly $1.5 
billion for the 3-year IDA 15 period, from Fiscal Year 2008 to 
Fiscal Year 2010, and that would mean an average of about $500 
million a year. In the next IDA replenishment period, the 
figure would rise to $3.5 billion. The reason for that is the 
assumption that Bangladesh would come in during that period to 
debt cancellation and they have a very high level of 
multilateral debt. And then in the following 3 years, it would 
drop to $2.4 billion, and the figure for future years would 
drop still further.
    Just a reminder that we're talking about debt that is going 
to become payable over the next 30 to 40 years, because these 
are very long-term debts. And what we're talking about is the 
cost of reducing or eliminating the need for these countries to 
pay their debt service each year over these 40 years. This is 
why the cost has to be calculated over a long period of time.
    An important assumption is that IDA and the other 
international financial institutions would be replenished 
dollar-for-dollar for the foregone principal and interest 
payments of the debt canceled. This is the principle adopted 
for the MDRI and would be in line with the requirement of 
additionality contained in Section 3 of H.R. 2634.
    Other assumptions are explained in my written testimony, 
which also explains that the cancellation schedule I have 
assumed may slip substantially, resulting in lower initial 
costs and lower overall costs. And if, as likely, Vietnam does 
not apply for cancellation, this would also reduce costs 
considerably. There's much reason, therefore, for expecting 
that the estimate could be revised downward as more information 
becomes available.
    Thank you for your attention.
    [The prepared statement of Mr. Flood can be found on page 
38 of the appendix.]
    The Chairman. Mr. Caliari?

 STATEMENT OF ALDO CALIARI, DIRECTOR, RETHINKING BRETTON WOODS 
                  PROJECT, CENTER FOR CONCERN

    Mr. Caliari. Thank you very much, Mr. Chairman. It is an 
honor for me to have the opportunity to testify today before 
this committee. I am going to be focusing on the provisions of 
the Jubilee bill that address responsible lending and 
borrowing. I am going to talk about the rationale for those 
provisions, some of the futures of the currency system, which I 
would argue discourages responsible lending, and I am going to 
talk about how the provisions in the bill will improve over the 
current system in different ways that I am going to explain.
    Mr. Chairman, members of the committee, the unfinished 
agenda on debt that the Jubilee Act addresses involves an 
expansion of debt cancellation, but we are also aware that if 
we want these, as well as the recent round of debt 
cancellation, to have lasting effects, we also need to look at 
the way ahead. That is why provisions in the bill to ensure 
responsible lending and borrowing are an inseparable part of 
this unfinished agenda on debt.
    Why is this important? Because the promotion of debt 
cancellation in impoverished countries comes from the belief 
that debt cancellation can free resources currently spent in 
servicing debt for productive and social spending that are 
required in those countries. However, if after the 
cancellation, debtor countries engage again in excessive 
borrowing, we will soon be back in the same situation where 
social and productive spending is curtailed by large amounts of 
debt service. Jubilee is also concerned with ensuring that the 
affected population has a say in the process of public debt 
generation. In the past, too many debts were taken on via 
mechanisms that were non-transparent, non-accountable, and, 
ultimately, of little benefit to the population in the indebted 
country.
    Today, the gains that a number of low-income countries 
expected to achieve through recent debt cancellation are 
starting to be eroded. There are two main concerns I want to 
raise in this regard.
    The first is that the debt levels of countries benefitting 
from debt cancellation are rapidly rising again because of new 
borrowing on a non-concessional basis. This concern has been 
underscored by the G-8 and the international financial 
institutions. There are a number of creditors that have not 
participated in debt cancellation that may actually free-ride 
on the cancellation, that is take advantage of the newly 
attractive debt profile of countries receiving debt 
cancellation for providing financing on a non-concessional 
basis.
    This dynamic is especially acute in beneficiaries of the 
Multilateral Debt Relief Initiative. The lower debt ratios of 
the beneficiaries in this initiative put them back in a 
position where they represent an attractive debt profile. After 
the MDRI, this is, excluding new lending after the MDRI, the 
debt stock ratios in most recipient countries will be 
significantly lower. In this situation, creditors that may not 
have participated in the debt relief effort may seek to profit 
by lending on a non-concessional basis.
    This non-concessional financing comes mostly from bilateral 
creditors not in the Paris Club, or emerging creditors, such as 
China, Brazil, India, Korea, Kuwait, etc., but there is also 
considerable non-concessional financing that comes from export 
credit agencies that are ironically in OECD countries. These 
are the same countries that are providing, on the other hand, 
the relief.
    Also, there are, of course, commercial credits and bonds. 
Some of these countries are now able to issue instruments in 
the international capital markets, something they were not able 
to do before.
    Second, the threat to the gains from debt relief comes from 
litigating creditors, such as ``vulture funds.'' These are 
creditors who profit by buying cheap sovereign debt in 
secondary markets and then maximize recovery via litigation and 
other pressure mechanisms. And it is a key reason why the debt 
these vulture funds bought cheaply now has become something 
that they can sue for in a higher amount, the reason to this is 
the debt cancellation received by some of the debtor countries 
on the other side of these contracts.
    So what about the current system? Do we have a current 
system to stop unsustainable, irresponsible debt? Well, to 
prevent countries receiving debt relief from falling back into 
debt due to non-concessional borrowing is that the 
international financial institutions adopted 2 years ago 
something called the Debt Sustainability Framework. And in 
Annex 1 of my statement, you will find a summary of how the 
framework works. The framework has as a purpose to determine 
how much new borrowing on a non-concessional basis low-income 
countries can incur. And based on a number of factors, it 
assigns a debt threshold to each country and it is assumed that 
the financial needs of those countries that go beyond that 
threshold need to be satisfied via grants. This framework is 
what we can say the current system is doing to discourage 
unsustainable lending, and it is quite ineffective and unfair, 
especially to the debtor but also, and I have to say this, for 
many of the creditors, for a number of reasons.
    What the system does is, with regard to the creditors, the 
international financial institutions are doing outreach to 
foster a culture of coordination around the framework. It is no 
surprise that this is proving quite difficult. In fact, the 
rate of success of the HIPC initiative to bring onboard non-
Paris Club creditors was very low. Why would anybody think that 
the creditors would suddenly put their heart into joining an 
initiative where they have to match even more debt relief? If 
anything, the incentives out there for them to do that are 
exactly the opposite. There is more debt forgiveness at stake, 
so creditors that are not part of the initiative can profit 
even more from staying out of it and even lending on a 
profitable basis to countries whose debts have been wiped out. 
At the same time, international financial institutions would 
sanction the debtor. Either reduce the grant allocations or 
give assistance in harder terms to countries that are found to 
be borrowing beyond their acceptable debt ceilings.
    Now how effective is this? Everybody knew at the time of 
establishing the Debt Sustainability Framework that in order 
for it to work, countries were going to need a significantly 
higher volume of grants than before. Now, if you know what has 
been happening with grant assistance, it has been going down. 
So discretionary grants is why countries go around to get 
funding on a non-concessional basis and the solution to this is 
that they say, ``Okay, if you do that, we will cut your grant 
allocation further.'' Well, of course, this is only going to 
worsen the problem and the creditors know it, and I quote in my 
testimony documents from IDA that leave no doubt that this is 
known by the creditors.
    So what we are proposing is a package of measures that we 
believe will significantly improve the current situation. Chief 
among these measures is that the bill calls on the executive to 
seek the international adoption of a binding legal framework 
that guarantees that no creditor can take or expect to take 
financial advantage of acquired or newly awarded debt relief 
through the terms and rates of their new lending to beneficiary 
countries. The way these measures will stop irresponsible 
lending is of a striking simplicity: It is based on setting the 
incentives right for new lending and borrowing. This is why it 
needs to be a binding framework; a mere code of conduct would 
not realign the incentives. If unsustainable lending occurs and 
the debtor needs debt forgiveness in the future, the creditor 
that engaged in unsustainable lending will have to take an 
equitable share in the burden of the losses. So every creditor 
lending to a country has an incentive to make sure its lending 
is not above what the borrower can safely undertake, which is 
exactly the opposite of today where creditors that typically do 
not provide debt relief have every incentive to lend above safe 
levels, knowing that they will be protected in the event debt 
forgiveness is required.
    The hope, of course, is that no new debt forgiveness will 
be necessary. This is the beauty of this measure, that it is 
first and foremost a preventive measure.
    Mr. Chairman, the bill also contains measures on 
transparency, the availability of grants, and measures dealing 
with vulture funds. I will be happy to address them in a 
question and answer session. With that, I will finish.
    [The prepared statement of Mr. Caliari can be found on page 
26 of the appendix.]
    The Chairman. Thank you. I neglected to ask unanimous 
consent that all the written statements be put into the record 
in their entirety, along with any other material the members 
might like. I will begin the questioning with our colleague 
from California who has been a consistent leader on this issue.
    Ms. Waters. Thank you very much, Mr. Chairman. And I would 
like to thank all of our witnesses who are here today helping 
us to understand more and more about debt relief. I would like 
to address a question to Ms. Woods. The Jubilee Act would 
eliminate harmful economic conditions for debt cancellation in 
the future, but this will not undo the harmful effects of IMF 
conditions on countries that have already received debt 
cancellation, countries like Mali and Ghana, which you 
described in your testimony. And I have to share with you that 
many of our members are very proud of complete debt relief, but 
they do not understand how it could be that a country could 
receive debt relief and find themselves worse off after they 
have gotten the debt relief than before. You talked about the 
conditions that are placed on getting this debt relief. Could 
you describe a little bit more how some of these conditions 
create more poverty, and would you describe how this Act could 
help with that problem?
    Ms. Woods. Thank you so much for that brilliant question. I 
think it goes to the heart of the matter. The issue is that the 
conditions attached to the Debt Relief Initiative actually 
first take away the space for developing countries to choose 
their path to development. That is the first problem. It is 
inherently undemocratic because essentially you have 
institutions based in Washington telling countries what they 
should prioritize in their spending, so it all sounds like 
tossing words around, ``privatization,'' and 
``liberalization,'' but essentially what is happening is that 
countries around the continent have their citizens paying 
taxes. So if you take for example Mali, citizens may be paying 
taxes and may assume that key services like water which have 
been provided in the past would continue to be provided through 
their taxes, but instead the IMF says, ``No, sell off your key 
industries to the highest bidder.'' And it is often the 
multinational corporations that are swooping in and saying we 
can manage those services better.
    It is based in a political argument that says government 
should be shrunk, that services should be provided by 
corporations, and so what is happening is corporations are 
coming in but as we see in example after example, corporations 
are not necessarily doing it better. We do not have to go to 
Mali, we can look right here in D.C. at healthcare as one 
example to see that it is not always the private sector that 
does the best job, right? So that is a broader argument but in 
the African continent, it impacts people's lives in a more 
desperate manner because people are already after decades of 
resources being extracted, even in wealthy countries, 
relatively wealthier countries like Nigeria, oil is flowing out 
of communities that have no schools, no hospitals, not even 
decent housing. So as corporations are coming in with their 
search for profits, ignoring communities, the services are not 
necessarily being provided better, and yet it is almost as if 
people are being asked to pay more. So the intent in seeking 
out the moral imperative of debt relief was to actually lift 
the burden off of poor communities but in fact what you have is 
the selling off of core services, which means people are forced 
out of their jobs as those services shrink, and also people 
have to then pay for those services to be provided. So whether 
it is telecommunications or water or healthcare or education, 
it is people already at the brink who are paying the heaviest 
price.
    Ms. Waters. Thank you very much.
    Ms. Woods. Thank you.
    The Chairman. I would just interject briefly that there is 
a lot of debate about the place of morality in politics, today 
we are talking about morality in politics, and I think we 
should in the deepest sense. The gentleman from Alabama?
    Mr. Bachus. I would like the panel to just comment if you 
would on the ``vulture funds,'' and what would be the most 
effective way to counter their negative activities? One thing I 
am concerned about is in the bill we propose to give the 
countries that are subject to suit or are targeted by the 
vulture funds to make legal counsel available to them or legal 
advice in combating these things, I am wondering about is that 
the most effective? I think that is obviously one of the things 
we should do. And are we going to be successful in court or are 
they going to be successful in court in fending these funds 
off, and that there are contracts, as much as we hate that 
fact? But any comments you would like to make just to inform 
us?
    Mr. Watkins. Yes, thank you for that important question. 
The vulture fund issue is not new. The original vulture cases 
actually happened in the 1990's. But, unfortunately, in the 
past year, actually we have seen an up-tick in the number of 
cases, perversely because the countries that have gotten debt 
relief now have money, more resources, and so the creditors are 
saying, well, this is a good opportunity to swoop in. It is a 
really perverse system.
    A couple of things, you mentioned the language in the bill, 
which would basically ask the U.S. Treasury Department to 
provide greater legal and technical assistance to countries. I 
think that is an important first step, just so that countries 
know what their options are when they are faced with these sort 
of suits. Another approach, which could help in the short term, 
would be the World Bank actually has something called the Debt 
Reduction Facility, which buys back at-risk private debt from 
poor countries. So what that can do is, and it has done, is 
actually take debts, which are not yet the subject of lawsuits, 
and actually buy them back from the private sector so that it 
sort of takes that off the market. So there are a couple of--
basically that fund could be increased.
    There are a couple of policy changes that could happen. The 
fund could be made available to pre-decision point countries. 
One of the countries right now that we are very concerned about 
with the vulture fund issue is Liberia, and we think that 
Liberia should have access to this sort of support. And 
basically countries should be able to go back more than once to 
this fund if they again see that future debts are threatened by 
these lawsuits. So those are I think what is in the bill and 
some work around the Debt Reduction Facility could help in the 
short term. Ultimately though the reality is that two-thirds of 
these suits, these lawsuits that have happened, have been 
brought in either the United States or the United Kingdom. So 
if we are going to address the problem at its root, we need to 
look at I think legal changes in the United States and look at 
a way to address the problem of U.S. courts, that a lot of 
these cases in fact are happening right now in courts in the 
United States.
    Mr. Bachus. Mr. Caliari?
    Mr. Caliari. Thank you very much for that question. Just to 
complement what Neil was saying, just to emphasize, some of the 
measures that are in the bill, as Neil has said, are short 
term, not only short term but in fact when you are talking 
about for example providing financing for countries to be able 
to buy back the debt from these vulture funds, what you are 
basically doing is also subsidizing an activity that in the 
first place is morally questionable--for example, just take the 
case of Zambia, when they bought debt at $308 million and then 
sued for $55 million and the court then did award them $15 
million. So probably in a case like that, what you would have 
had if the country had been able to buy that debt, it is buying 
the debt for the $55 million, right, just to stop the threat. 
And that is not ultimately what we want to do, although in the 
short term it is necessary. But in the long term, I just want 
to emphasize there is no really way around having a framework, 
a legally binding framework that will ensure that all creditors 
have to share equitably on the losses when a country needs debt 
relief, and this really requires that the bill calls on the 
executive to pursue, to seek the adoption of this 
multilaterally binding framework. It is a long-term solution 
but it is ultimately the only one that is really going to solve 
the problem.
    The Chairman. We will take the gentleman from Missouri 
next, and then we will break. There is only the one vote and if 
the panel--this is a very important issue, so I assume you 
would not mind waiting? I will come back, and the gentlewoman 
from Wisconsin, and maybe some others, so we will have time for 
the gentleman from Missouri to ask his questions. We will be 
back probably in about 20 minutes. Mr. Cleaver?
    Mr. Bachus. Mr. Chairman?
    The gentleman from Missouri went on a fast as part of this 
effort, and I would like to commend him and he has spoken out 
very forcefully on debt relief. I would like to compliment him.
    The Chairman. I thank the gentleman for that. The gentleman 
is recognized.
    Mr. Cleaver. Thank you, Mr. Chairman, and I thank the 
ranking member. As I read through your testimony, it was, 
``Damned if you do and a damned if you do.'' If you do not 
request financial assistance from the World Bank and other 
institutions, you are not going to be able to address the 
mammoth problems you face. And then if you do receive it and if 
you repay it, you are going to deepen the mammoth problems that 
you face. I am not so sure that we should not make corrections 
on the other end when the loans are being made. The question is 
this, would it be in the best interest of those nations 
receiving the largesse from richer nations or the World Bank, 
if on the receiving end, the repayment period is stretched out 
years and years and years and years as opposed to trying to 
repay the loan over a short period of time or the beginning of 
the repayment of the loan over a short period of time. What we 
do sometimes in municipal government is that we will lease land 
to some entity that has a government purpose for one dollar for 
75 years, and everybody knows and understands when you do that, 
that there is a public purpose and so you do not want to burden 
this entity. So I am wondering, I support debt relief 
obviously, but I am wondering if maybe we should not do 
something on the front end to even remove the psychological 
trauma of wondering how you are going to make it when you have 
to begin to repay the loan, am I clear? Okay.
    Mr. Flood. Well, that is a very important question. I think 
that is a question actually which a lot of these--many of the 
shareholders of the multi-lateral development institutions have 
been concerned about in recent years, and I give credit to the 
Administration; they were concerned about the kind of issue you 
are talking about. If you take a look at most of this multi-
lateral debt, which is the kind of debt we are talking about 
trying to get canceled, most of it is already on very long term 
and very low interest. The IDA loans, for example, are 40 years 
long, and they have a 10-year grace period where you do not 
have to pay any principal and you only pay a small service 
charge. The problem is that in spite of those easy terms, these 
countries still managed over time to accumulate an awful lot of 
debt and get themselves in an unsustainable position so that 
they needed debt relief. That was one of the reasons for of 
course the HIPC program and the subsequent debt relief programs 
that were developed. But even then, a couple of years ago, the 
Treasury Department, our Treasury Department, said it is 
obvious that a country like Niger cannot pay back anything. Why 
are we kidding ourselves? They are so poor, they are not in a 
position to be repaying debt. And what happens is you have kind 
of a lend-and-forgive cycle. The World Bank would make a loan 
to Niger and then after a few years, Niger would have trouble 
paying it back, so the World Bank would make another loan so 
that they would have the funds with which to repay the earlier 
loan. This is a kind of a never-ending cycle of lend and then 
not getting paid, so you have to lend again so they can have 
the money that they can use to pay you back. The money is just 
revolving in a circle. So they said you have to give them 
grants, this is what is going to happen. So a lot of these 
countries now are receiving grant funds, not loans at all from 
IDA for example, but getting the money without having to pay 
any of it back. And this is a new feature. The question though 
is whether the criteria that are used for determining which 
countries should receive grants are adequate, and this is a 
debate that goes on. But it is an advance, they are making an 
advance in that respect. But there is still the question, for 
all the countries we are talking about, is even though a lot of 
them, most of them, are going to be in a position to get some 
grants going forward, they still have this large overhang of 
debt from the past, which is hanging over them and which they 
really need to get rid of.
    Ms. Woods. So we are all here as member of the Jubilee 
Network and strong supporters of debt cancellation, 100 
percent, no strings. We will keep telling you that daily. I 
think we are also, and you see it in much of our testimony, 
recognizing that debt relief is just a small part, an important 
part, but a part of the picture. Debt relief must be 
accompanied by changes in trade in particular. If you think 
about Africa, you should think richness, you should think 
resources, right? But those resources, whether it is the oil or 
the uranium, I could go on and on in terms of the richness of 
the continent.
    The Chairman. Well, you could if we did not have a vote.
    Ms. Woods. Sorry, you have a vote. The point is that debt 
cancellation is a critical first step. But in looking at the 
big picture, which your question goes to, we have to also look 
at changes that will bring a fair trade opportunity so that 
African countries do not have to continuously go asking for 
loans but that the richness of the continent can actually 
benefit the citizens of the continents themselves.
    The Chairman. We are going to have to break now for the 
vote, but we will come back. There could be a second round. 
This is a very important subject, and I will be back. The 
gentlewoman from Wisconsin and other members may also come back 
and have some further questions. We should be back in about 20 
minutes or less.
    Ms. Woods. Thank you.
    [Recess]
    The Chairman. We will reconvene. Other members may be back 
but, as I listened, there are obviously a number of things we 
want to deal with here, but the vulture fund issue is obviously 
a tough one for us to get a handle on legally. And I remembered 
and I checked with my staff, which has been doing such good 
work, I remembered the proposal that had been forwarded by Ann 
Krueger at the IMF for some international bankruptcy regime. 
Would someone get that door, please, and close it? And it does 
seem to me that if that had been in place, we would be a lot 
better off. I would be interested in your views about whether 
you think an international bankruptcy regime would be useful 
and, if so, what could we do? Obviously, we cannot simply 
legislate it, but how would we go about pushing for that, 
should that be part of what we are trying to do in this? Let me 
start with Mr. Caliari.
    Mr. Caliari. Thank you very much. I think you are 
absolutely right, ideally an international bankruptcy system 
would be the way to replicate. I was talking about incentives. 
What you have at a domestic level in every country is the 
domestic bankruptcy system where the creditors know that if a 
debtor goes bad, they are going to have to take some losses, 
right? There is a system for that. We do not have that system 
at an international level. What we de facto have is the 
combined work of different systems that have been created, one 
on top of the other, to try to develop a solution and the 
solution is driven by the creditors alone, so there you have 
already a significant difference with what happens at the 
domestic level where there is an independent authority usually 
issuing judgment. So in the bill we do not go into the details 
of--we do not say actually it needs to be a bankruptcy system--
    The Chairman. That is why I asked you.
    Mr. Caliari. Yes, okay, we are saying that there is a need 
to actually address this incentive problem and the only way to 
address the incentive problem is with a binding legal 
framework. What you have here is the problem of collective 
action, where no individual country and no individual creditor 
would have a willingness to take action on its own.
    The Chairman. No, in fact, they are afraid that they will 
then be disadvantaged.
    Mr. Caliari. Right.
    The Chairman. It will be a ``beggar thy neighbor'' 
situation.
    Mr. Caliari. Exactly.
    The Chairman. Let me go on--
    Mr. Caliari. But just let me say one thing about the SDRM 
proposal, which you referred to, which actually I am not sure 
we will be necessarily in a better place because the problem 
with the SDRM is that it did put the IMF, which is--
    The Chairman. Well, it does not have to be that one.
    Mr. Caliari. Right, exactly.
    The Chairman. That would be the question I would ask people 
to think about, when we come back, for us in February, let me 
put it this way: In some cases, if you are afraid bad things 
are going to happen, you can condition what you are doing and 
say to people, ``Well, do not do that.'' But you really cannot 
say to the poor countries, ``We are not going to give you the 
relief,'' because they are being driven to this. So it did seem 
to me that is one that we should be thinking out and then how 
to do it. Mr. Flood, on the bankruptcy issue?
    Mr. Flood. I guess I have not thought about this for a 
while, so I am not going to be able to give you a very good 
answer.
    The Chairman. Okay.
    Mr. Flood. But I do remember one of the problems with it, 
the idea floated around for an international bankruptcy system, 
was that the debtors did not like it. They were afraid that 
they were going to be thrown into bankruptcy against their 
will. This would cause them more problems than it would solve. 
So you had that sort of lack of interest on the part of many of 
the debtors to get involved with that kind of a thing.
    The Chairman. But would that be curable if it was drafted 
properly?
    Mr. Flood. I think it would have to be drafted as a 
voluntary system.
    The Chairman. Okay. Ms. Woods?
    Ms. Woods. I think the critical thing here is a fair and a 
transparent process. And, yes, I think there are a lot of us 
that will quibble with the process that was already presented, 
the sovereign debt restructuring mechanism,--
    The Chairman. Forget that.
    Ms. Woods. --and we can debate that. But, overall, a 
process that brings open, transparent discussion so that there 
are not backdoor deals with hedge funds and other type funds, I 
think brings up a bit more openness. So what we need is a 
process where parliaments, where citizens and really everyone 
can see what is the actual debt and have a more open process.
    The Chairman. I really urge you to start working on that. 
Frankly, conceptually and intellectually, debt relief is kind 
of easy, and I think we will put that bill through, but we want 
to do some of the other things. And also when we do debt 
relief, we are going to be told about moral hazard, and it does 
seem to me that the greatest moral hazard here is the absence 
of a bankruptcy system. That is the license for not worrying 
about whether people can repay, the absence of a bankruptcy 
system is probably one of the major ones.
    Mr. Watkins?
    Mr. Watkins. I would agree with what other panelists have 
said, that I think it is a missing feature in the international 
system right now, that such a system--we are seeing all these 
problems with vulture funds, with creditors not participating, 
and that is fundamentally, there needs to be put in place less 
of a patchwork of these initiatives involving certain creditors 
here and there and more of an over-arching framework.
    The Chairman. Well, I appreciate that and I really urge 
you, there is a great deal of expertise here, and I think again 
some of these questions are relatively easy, although they can 
become difficult politically. I was struck as I listened, it 
just occurred to me as my staff briefed me and I listened, that 
the vulture fund is a very significant issue, and we need to be 
able to deal with it.
    The other question is similar in the sense that we have the 
people who are willing to discharge their debts may be feeling 
they are being taken advantage of and that is additional third 
country lending. So Country A forgives the debt of Country B, 
and then Country C, as in China, then decides to make more 
loans. Is there any way we can deal with that or should we? Mr. 
Caliari?
    Mr. Caliari. Yes, certainly the only way a system like this 
can work is if it includes all public and private creditors, so 
in public creditors you have to include a country's lending 
through different windows also, which is important.
    The Chairman. What is the likelihood of their agreeing, do 
people have any sense of it?
    Mr. Caliari. Yes, for any measure like this, a request for 
collective action, you always need a leader, a champion, to 
start, and so it may take some years. Of course, this is not 
something that is going to happen tomorrow, but you do need 
somebody who is going to start. If you wait until everybody 
agrees to start the process, then it is never going to happen.
    The Chairman. Yes.
    Mr. Caliari. Sorry, and I do not think that has deterred 
the U.S. Government in the past when there are things that the 
government feels strongly that need to be pushed at an 
international level, taking the leadership, finding allies to 
go ahead and do it, I do not think that has been a deterrent. 
And so I think it is important that the Congress calls on the 
Executive Branch to pursue this at the international level.
    The Chairman. Mr. Flood?
    Mr. Flood. Yes, well, I think that this gets into 
geopolitical issues, a lot will depend on what China thinks is 
in its own interest here. If you are talking about China, that 
is the big player here, but India to some extent as well. But 
one thought that had occurred to me is that why not try to get 
them more to the table where they are discussing these issues 
in a forum where they would be willing to listen and be willing 
think that perhaps their point of view about how some of these 
development issues should be addressed would be taken into 
account, like giving a bigger voice to the board of the World 
Bank, something like that. That might help, get them sort of--I 
hate to use the word ``co-opt,'' but get them into the dialogue 
on all these issues with the others instead of operating 
independently.
    The Chairman. Ms. Woods?
    Ms. Woods. I think the principle that you are recommending 
is a good one, and that is for donors to coordinate a bit 
better and that you do not have the United States coming in, or 
the United Kingdom coming in with all their protocols and 
essentially adding demands on the developing countries 
independently, so some type of better coordination I think is a 
good principle to move forward. But I think it goes a step 
further, I think there is also a need for the debtor countries 
to have sort of a cartel, so to speak, and to be able to come 
together to kind of map out their plan. And it may be that they 
are wanting to go to China or Malaysia or a number of other 
countries that are offering development finance without 
conditions.
    The Chairman. One of the things I was reminded of by Mr. 
Caliari is that we, the United States, are in significant 
arrears to IDA, and so that may be one of the factors driving 
countries to do this. One of the ways we should deal with this 
is--and I think we may be writing, some of us, this is our 
fault, this is not a campaign of the President, this is a 
congressional problem, we need to do better on the IDA thing. 
Mr. Watkins?
    Mr. Watkins. Yes, just a bit on that. One of the problems 
is, as Aldo Caliari mentioned earlier, that countries do not 
have access to concessional finance, so they are turning to 
China.
    The Chairman. So the IDA thing would be--
    Mr. Watkins. IDA is a source, more grant-based finance is 
critical for this move forward. I think the other thing, as we 
talk about bankruptcy or arbitration processes, the importance 
of thinking about responsible lending, what does responsible 
lending practice look like, what sort of standards should be in 
place so that we do not again accumulate new odious debt.
    The Chairman. Well, I agree but the problem is to deal with 
responsible lending, you need sort of unanimous consent of the 
lenders because one irresponsible lender can in fact profit 
from the others. Let me add this, and then I am going to call 
on the gentlewoman from Wisconsin, who has been one of our 
active members who has an interest in this. The governmental 
responsibilities, that is why we are here, but it does seem to 
me with some of the lending, when we think about some of the 
countries, that the non-governmental organizations of civil 
society can be relevant. It does seem that here is a case where 
it is a moral persuasion. There are countries doing the lending 
that do not want to be thought ill of, that have a self-image 
that I think you can affect, so we are not abdicating, it is 
our part too. But I think this is an important thing for us to 
be able to do together.
    The gentlewoman from Wisconsin is recognized for 5 minutes.
    Ms. Moore of Wisconsin. Thank you, Mr. Chairman. I guess I 
want to start out by asking, I believe it is Mr. Watkins, a 
question. You had with respect to the vulture funds, you say 
that the World Bank should buy back some of the debt and 
increase this fund and that countries ought to be able to come 
back more than once. What do you see as the under-riding 
obstacles or conditions that exist within the World Bank 
structure to prevent countries from doing that? I know that 
president certainly is very worried about vulture funds at this 
time. If this were so easy, why would not she just do it, what 
are the barriers?
    Mr. Watkins. As I understand it, it is simply World Bank 
policy that countries cannot access the fund prior to reaching 
decision point on the Debt Reduction Facility. So it should be 
a matter of being able to change that policy, and that would 
make it possible for countries like Liberia to move forward. I 
think another point that is interesting on the vulture fund 
piece, it is just a question of information and disclosure. 
One, progressive reform that we could, just building on what I 
suggested earlier, that we could--we do not know a lot about 
who these vulture funds are, even if they are U.S. citizens who 
are involved. So could we somehow find a way to disclose what 
are these funds paid, who are they, what actions are they 
taking? That sort of basic information on the if you in essence 
by debt on the secondary market and you are distressed debt 
fund or U.S. individual, should we not have access to that sort 
of information in addition to the World Bank level work?
    Ms. Moore of Wisconsin. Right, well, they will say that 
they are private funds and so that is why this disclosure is 
very difficult. It is a challenge that this committee deals 
with all the time.
    Let me ask another question that is perhaps is a very 
theoretical and macroeconomic, and perhaps, Ms. Woods, you 
would like to weigh in on this as well with Mr. Watkins or 
other members of the panel, would it be useful to try to have 
the United Nations, I understand that most of these cases have 
been brought in the United Kingdom and the United States' 
courts, but would it be useful to have the G-8 countries or the 
United Nations define odious debt so that it would be a 
preemptive strike and discourage investors from in fact lending 
and having financial transactions with countries where there 
are dictators, where they are financing these wars? I think the 
story of Africa is a story of these criminals, I think that are 
in charge of government, and so if we were to define odious 
debt at the level of the United Nations, do you think that that 
would be something that we can pursue at the United Nations 
level that would discourage these investors and in fact prevent 
these folks from winning in court?
    Ms. Woods. Well, Aldo spends a lot of time on UN issues, so 
I am sure he will want to comment on this as well, but 
essentially yes, I think it is critical to begin to have 
international law that says that dictator debt essentially is 
illegitimate. And we have a practice from 1898 set forward by 
the United States when they essentially took over Cuba and said 
that the debt owed to Spain was odious debt and took steps to 
have that debt canceled. You had the Bush Administration again 
with Iraq use that same principle of odious debt, and so you do 
have established practice. I think it would be extraordinary 
and extremely timely for this committee to encourage the 
administration at the United Nations and elsewhere to advance 
an international convention or some type of international legal 
binding mechanism that actually--
    Ms. Moore of Wisconsin. Vulture funds did not even come up 
at the last UN meeting, Mr. Chairman and Ms. Waters.
    Mr. Watkins. Right.
    Ms. Moore of Wisconsin. It did not even come up.
    Mr. Watkins. Right.
    Ms. Moore of Wisconsin. So that is why I asked that 
question.
    Mr. Watkins. Now, I do think there is an opportunity 
because the UN in 2008 is going to be advancing the Financing 
for Development Conference that was held in Monterrey, Mexico 
is re-convening, and so you will have an international 
conference looking at development finance issues, and clearly 
issues of debt are on that agenda, so there is an opportunity. 
What would be needed is leadership from the United States.
    Ms. Moore of Wisconsin. Well, Ms. Waters, for example, is 
on the Judiciary Committee, I do not know which jurisdiction, 
which committee has that, but she is also on this committee 
too, so I am so happy that she is here to hear this. Mr. 
Chairman, will you yield me just 30 more seconds?
    The Chairman. Yes.
    Ms. Moore of Wisconsin. Thank you because I would like Mr. 
Caliari to be able to respond at the suggestion of Ms. Woods.
    Mr. Caliari. I really think she has covered it quite well. 
I totally agree with her opinion. You need a convention that is 
going to be binding on domestic courts because at some point 
the place where these debts is enforced is in court. So if 
there is a convention like that, that is multilaterally agreed, 
then as you say you can prevent these folks from winning in 
court, and I think that will be very important progress.
    Ms. Moore of Wisconsin. Thank you so much. I yield back.
    Ms. Woods. Thank you.
    The Chairman. I want to thank you. And we really do want to 
keep working with you on how to--we are going to move on this, 
this committee will be voting on this bill next year, and 
designing a bankruptcy system will be part of the other 
safeguards we can put in. We will also be urging that we pay up 
our IDA debt because that reduces the push factor there. I 
appreciate this, and the members of our staff, myself, the 
gentlewoman from California, and others will remain in contact. 
The hearing is adjourned.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]
                            A P P E N D I X



                            November 8, 2007
[GRAPHIC] [TIFF OMITTED] 40432.042

[GRAPHIC] [TIFF OMITTED] 40432.043

[GRAPHIC] [TIFF OMITTED] 40432.001

[GRAPHIC] [TIFF OMITTED] 40432.002

[GRAPHIC] [TIFF OMITTED] 40432.003

[GRAPHIC] [TIFF OMITTED] 40432.004

[GRAPHIC] [TIFF OMITTED] 40432.005

[GRAPHIC] [TIFF OMITTED] 40432.006

[GRAPHIC] [TIFF OMITTED] 40432.007

[GRAPHIC] [TIFF OMITTED] 40432.008

[GRAPHIC] [TIFF OMITTED] 40432.009

[GRAPHIC] [TIFF OMITTED] 40432.010

[GRAPHIC] [TIFF OMITTED] 40432.011

[GRAPHIC] [TIFF OMITTED] 40432.012

[GRAPHIC] [TIFF OMITTED] 40432.013

[GRAPHIC] [TIFF OMITTED] 40432.014

[GRAPHIC] [TIFF OMITTED] 40432.015

[GRAPHIC] [TIFF OMITTED] 40432.016

[GRAPHIC] [TIFF OMITTED] 40432.017

[GRAPHIC] [TIFF OMITTED] 40432.018

[GRAPHIC] [TIFF OMITTED] 40432.019

[GRAPHIC] [TIFF OMITTED] 40432.020

[GRAPHIC] [TIFF OMITTED] 40432.021

[GRAPHIC] [TIFF OMITTED] 40432.022

[GRAPHIC] [TIFF OMITTED] 40432.023

[GRAPHIC] [TIFF OMITTED] 40432.024

[GRAPHIC] [TIFF OMITTED] 40432.025

[GRAPHIC] [TIFF OMITTED] 40432.026

[GRAPHIC] [TIFF OMITTED] 40432.027

[GRAPHIC] [TIFF OMITTED] 40432.028

[GRAPHIC] [TIFF OMITTED] 40432.029

[GRAPHIC] [TIFF OMITTED] 40432.030

[GRAPHIC] [TIFF OMITTED] 40432.031

[GRAPHIC] [TIFF OMITTED] 40432.032

[GRAPHIC] [TIFF OMITTED] 40432.033

[GRAPHIC] [TIFF OMITTED] 40432.034

[GRAPHIC] [TIFF OMITTED] 40432.035

[GRAPHIC] [TIFF OMITTED] 40432.036

[GRAPHIC] [TIFF OMITTED] 40432.037

[GRAPHIC] [TIFF OMITTED] 40432.038

[GRAPHIC] [TIFF OMITTED] 40432.039

[GRAPHIC] [TIFF OMITTED] 40432.040

[GRAPHIC] [TIFF OMITTED] 40432.041


</pre></body></html>
